No.

IN THE
SUPREME COURT OF THE
UNITED STATES

ZIYAD YAGHI,
Petitioner
vs.
UNITED STATES OF AMERICA,
Respondent.
PROOF OF SERVICE
I, Ziyad Yaghi, do swear that on this date of September 15,
2020, as required by Supreme Court Rule 29, I have served the
enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION
FOR A WRIT OF CERTIORARI on the party to the abouve proceeding, by
depositing an envelope containing the above documents in the United
States mail properly addressed to respondent, United States, with
first-class postage prepaid to the Office of the Solicitor General
for the U.S. Department of Justice located at 950 Penny.lvania Ave. ,
N.W. Washington, D.C. 20OO(
I declare under penalty of perjury that the foregoing is true
and correct.
Executed on September

11,

2020

£iyad Yaghi
Pro se Petitioner
Reg. No. 51771-056
F.C.I. Ray Brook
Post Office Box 900
Ray Brook, New York 12977

